March 30, 1999

GAIL SONNENBERG
VICE PRESIDENT, TACTICAL MARKETING
 AND SALES DEVELOPMENT

HANK CLEFFI
ACTING VICE PRESIDENT, TACTICAL MARKETING
 AND SALES DEVELOPMENT

SUBJECT: Review of the Sales Force Augmentation Pilot
         Project – Phase II (RG-MA-99-002)


In September 1998, the Tactical Marketing and Sales
Development Office requested the assistance of the Office
of Inspector General (OIG) to review the Sales Force
Augmentation pilot program. This management advisory
report represents our second review of the ongoing Sales
Force Augmentation pilot, which is geared toward the
establishment of 12 major metro sites during Fiscal Year
(FY) 1999, with nationwide rollout anticipated in FY 2000.
The following sections provide specific information on our
observations on the pilot and highlights these observations
and suggestions for improvement.

We have summarized your comments after each suggestion
in this report and have included your comments as an
attachment. Management's comments were generally
responsive to the issues and suggestions raised in this
report. The Sales Force Augmentation Team has promptly
provided information and updates about the actions they
have taken and have continued to provide detailed
information on actions underway regarding our suggestions.
We appreciate the information provided and actions
implemented on the report to date and request that you
provide the outcome and decisions regarding funding from
your planned advisory briefing to the Postmaster General. If
a Phase III review is performed, it may look at the reporting
procedures in place for Providers and the review procedures
for the District Provider Managers.
Review of the Sales Force Augmentation Pilot project – Phase II                    RG-MA-99-002




     Results in Brief              The Tactical Marketing and Sales Development staff has
                                   continued to make significant progress in the rapidly
                                   expanding Sales Force Augmentation program. The
                                   concept was designed to be a new method of generating
                                   increased revenue and meeting the needs of small-and
                                   medium-sized business customers.

     Management's                  The Sales Force Augmentation Team is continuing to
     Accomplishments               move forward to expand the program. In addition, the
                                   team is forming a positive working relationship with the
                                   contracted Providers, while maintaining an awareness of
                                   resource limitations. The US Postal Service (USPS)
                                   management has pilots underway in Atlanta, San
                                   Francisco and Los Angeles. They plan to continue rapid
                                   expansion of the Sales Force Augmentation program to
                                   the nine remaining USPS metro areas, which will be
                                   divided contractually under regional umbrellas1. The 12
                                   targeted metro areas consist of 23 USPS districts.

     Review Results                We have completed our second review of the Sales Force
                                   Augmentation pilot. Our first review of the Sales Force
                                   Augmentation pilot was issued in September 1998 and
                                   addressed the areas of baselining, account transitioning,
                                   staffing, advising USPS management, and implementing
                                   the Intranet System. Our second review identified six
                                   conditions that warrant the continued review and action of
                                   the Sales Force Augmentation management. The
                                   conditions are in the areas of:

                                   •   Pilot Expansion,
                                   •   Baseline Determinations,
                                   •   Provider reporting,
                                   •   Physical Spot Audits,
                                   •   Intranet System, and
                                   •   Delivery Confirmation

                                   Our management advisory report provides observations,
                                   along with details of our review, and suggestions for
                                   improvement to further enhance and strengthen the Sales
                                   Force Augmentation program. We have identified 11
                                   suggestions to help Postal Service management ensure
1
    Western Region: San Francisco, Los Angeles, and Denver;

    Central Region: Dallas, St. Louis, and Chicago;

    Northeast Region: New York, Boston, and Philadelphia; 

    Southeast Region: Atlanta, Washington, DC, and Miami.


                                                       2
                                            Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	                  RG-MA-99-002


                              strong internal controls exist as further expansion occurs
                              with the pilot.

                              The Sales Force Augmentation Team expressed interest
                              that the OIG perform a phase III review, which could
                              encompass a more in-depth review of the Provider's
                              accounting and billing process. This review, if performed,
                              would begin at the end of FY 1999.

   Background                 In September 1998, the Tactical Marketing and Sales
                              Development group requested the assistance of the OIG
                              for a second review of the Sales Force Augmentation pilot
                              project. The Sales Force Augmentation pilot was initiated
                              in April 1998 in San Francisco and Atlanta. This followed a
                              two-year effort that was performed in the New York Metro
                              Area office, which indicated it had generated $42 million in
                              net revenue.

                              After the New York pilot, Tactical Marketing and Sales
                              Development management has revised the projected
                              revenue opportunity from the current Sales Force
                              Augmentation pilot to be approximately $404 million over
                              three years, with incurred expenditures estimated at $70 to
                              $80 million, making this an excellent opportunity to
                              counteract possible revenue shortfalls. The Tactical
                              Marketing and Sales Development management created
                              key positions for this pilot. These positions include: a
                              Sales Force Augmentation Program Manager who
                              oversees the entire project, workload, activities, and
                              reports to USPS management; Team Leaders who
                              oversee the functions for regions and work with the
                              Implementation Coordinators, who work closely with
                              district management to ensure communication; and District
                              Provider Managers who work on a daily basis with the
                              Providers in each region, monitor and review sales,
                              baselining activities, record documentation, and billing, and
                              ensure positive USPS representation.

                              Sales Force Augmentation is a unique direct-sales
                              marketing strategy that is designed to generate new
                              revenue from small- to medium-sized businesses through
                              the sale of four postal products: priority, express, global
                              priority packaging, and express mail international.

                              •	 Priority Mail offers 2 to 3 day service for first-class mail
                                 that weighs over 11 ounces (less at the customer’s

                                                3
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	               RG-MA-99-002


                                 request) and delivery to most domestic destinations.
                                 This is often used to expedite material that is mailable
                                 as first-class, periodicals, or standard mail.

                              •	 Express Mail and Express Mail International offer
                                 guaranteed next day delivery by 12:00 noon and is
                                 used for the shipping of any materials to most
                                 destinations, with no extra charge for delivery on
                                 Saturdays, Sundays or holidays. This express service
                                 is also available between the United States and over
                                 200 foreign countries.

                              •	 Global Priority Mail offers expedited priority handling in
                                 the United States and foreign countries and is available
                                 for all items that may be mailed as letters or materials
                                 weighing up to 4 pounds.

                              This pilot was based on an effort that was tested in New
                              York Metro Area, between January 1996 and May 1998.
                              The business segments in the pilot were initially comprised
                              of companies with 49 or fewer employees. However, the
                              new business plan, September 1998, now allows Sales
                              Force Augmentation to target small-and medium-sized
                              businesses with 99 or fewer employees.

                              In April 1998, the USPS entered into contracts with two
                              Providers. These firms employ sales personnel to sell the
                              above-mentioned USPS products and services. One firm
                              was selected to cover the Atlanta region. Another was
                              selected as the Provider for the San Francisco metro area,
                              which includes pilots in San Jose and Oakland. The
                              project was expanded to Los Angeles in August of 1998,
                              and retained the same Provider.

                              A new solicitation went out for bid February 2, 1999, to the
                              seven vendors that were pre-qualified in early 1998. This
                              solicitation also allows interested vendors the chance to
                              submit offers, as long as they are pre-qualified by the
                              same date the bid proposals are due. This solicitation
                              covers the four regions outlined in the new Sales Force
                              Augmentation Business Plan. Provider A and B are
                              included in the seven pre-qualified vendors.

   Scope, Objectives,         The scope of our review covered the ongoing Sales Force
   And Methodology            Augmentation pilot that was developed by the Tactical
                              Marketing and Sales Development Office in the Marketing

                                                4
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	              RG-MA-99-002


                              Office. Overall our objective was to review the continued
                              development of the Sales Force Augmentation pilot with
                              emphasis on management controls over the general areas
                              of:

                              •	 Sales Force Augmentation Intranet System,
                              •	 Baseline Determinations, and
                              •	 Provider Reporting.

                              We visited the provider's offices to review supporting
                              records and met with provider staff responsible for the
                              ongoing Sales Force Augmentation pilots in San
                              Francisco, CA and Atlanta, GA. We met with
                              Headquarters and field staff responsible for administering
                              the Sales Force Augmentation pilot. We also followed up
                              on the action taken by Sales Force Augmentation
                              management on the suggestions made in our Phase I
                              Sales Force Augmentation report, issued in September
                              1998. The current status of the suggestions contained in
                              the Phase I report is shown on page 24, section "Follow-
                              Up on Prior Report".

                              This review was conducted from October 1998 through
                              January 1999, in accordance with the President's Council
                              on Integrity and Efficiency, Quality Standards for
                              Inspections. We discussed our observations and
                              suggestions with appropriate management officials during
                              the course of our review and have included their
                              comments where appropriate.

                              Because the Sales Force Augmentation pilot is in the
                              developmental stage, we reported the results of our review
                              as observations and are making suggestions to Sales
                              Force Augmentation management to strengthen control
                              processes. The specific objectives of our review are
                              outlined above. We did not review the cost-benefit or
                              overall effectiveness of the Sales Force Augmentation
                              pilot.

   Observations and           Our second review identified six conditions that warrant the
   Suggestions                continued review and action of the Sales Force
                              Augmentation management. The conditions are:

                              •	 Continued Rapid Expansion of Pilot Requires
                                 Management Safeguards,
                              •	 Clearer Guidance Needed for Baseline Determinations,

                                                5
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	              RG-MA-99-002


                              •	 Support for Provider Billings Needs Improvement,
                              •	 Spot Audits Need to be Utilized as a Management
                                 Control,
                              •	 Sales Force Augmentation Intranet System Not Yet
                                 Operational, and
                              •	 Coordination of Delivery Confirmation is Vital to Sales
                                 Force Augmentation Deployment.

   Observation A:             According to the Tactical Marketing and Sales
   Continued Rapid            Development staff, the Sales Force Augmentation pilot
   Expansion of Pilot         continues to generate excitement and interest from other
   Requires                   districts and operations, including the International
   Management                 Business Unit, as a vehicle for increasing revenues to the
   Safeguards                 Postal Service. Sales Force Augmentation management
                              advised that they have continued to expand the number of
                              locations participating in the pilot and have received
                              numerous inquiries from other locations nationwide.
                              Although the Sales Force Augmentation Business Plan
                              outlines many potential benefits, Postal Service
                              management needs to immediately implement or improve
                              several key management safeguards in the areas of:

                              •	 Spot audits (see Observation D),
                              •	 Sales Force Augmentation Intranet System (see
                                 Observation E),
                              •	 Staffing, and
                              •	 Provider reporting (see Observation C).

                              These safeguards would further ensure a more successful
                              deployment of the pilot and maximize revenues for the
                              Postal Service.

                              According to USPS Management, the New York pilot
                              proved that the Sales Force Augmentation concept was
                              viable and beneficial but ended because proper resources
                              were not available for its continuation and the use of
                              individual personal service contracts was discontinued.
                              Further, the New York pilot provided a solid foundation for
                              subsequent pilots. The pilot specifically demonstrated the
                              need for full-service Providers to manage specific
                              geographic regions. Additionally, the pilot led to the
                              introduction of the baselining concept and improved
                              methods of inventory control, and displayed the need for a
                              reliable management information system in database form.
                              The work of the sales representatives, in particular, is
                              critical to the success of the Sales Force Augmentation

                                                6
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	              RG-MA-99-002


                              program. Sales Force Augmentation management
                              discovered that although most sales representatives used
                              by the Providers had accurately reported their activities,
                              some representatives grossly misstated sales figures.

                              Spot audits were supposed to be implemented in the
                              current pilot to prevent this problem. Sales Force
                              Augmentation management has successfully
                              accomplished many Sales Force Augmentation program
                              goals, including the timely achievement of interim
                              milestones for program expansion.

                              The Sales Force Augmentation Business Plan outlines
                              several significant benefits of the program. These benefits
                              include:

                              •	 Increasing revenue to the Postal Service,
                              •	 Increasing customer satisfaction by uncovering small-
                                 and medium-sized businesses not previously served by
                                 USPS,
                              •	 Increasing name recognition for expedited services and
                                 products, and
                              •	 Maximizing the use of Postal Service assets and
                                 resources.

                              Sales Force Augmentation management stated that there
                              is growing interest from Districts and operational managers
                              about the program. Currently, managers in major
                              metropolitan areas including Boston, Detroit, Chicago,
                              Washington, DC, and Miami and locations in Maryland
                              have inquired about establishing a Sales Force
                              Augmentation program. Also, the International Business
                              Unit management has expressed interest in the Sales
                              Force Augmentation program. The Sales Force
                              Augmentation program can help these managers offset
                              anticipated local revenue shortfalls while improving
                              responsiveness to small- and medium-sized business
                              customers.

                              Since USPS considers Sales Force Augmentation a
                              promising concept, Sales Force Augmentation
                              management is under pressure to continue planned
                              expansion to the nine remaining metropolitan markets.
                              However, the continued expansion of the program is
                              occurring before management controls are fully designed
                              and implemented over several significant operational areas

                                                7
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	               RG-MA-99-002


                              such as baseline establishment, Provider reporting,
                              program staffing, and the USPS Intranet system.

   Suggestion                 Sales Force Augmentation management should:

                              1. Place renewed emphasis on addressing the operational
                                 improvements outlined in this report, with the continued
                                 expansion of the program. Management should also
                                 continue to adhere to the controls identified in the Sales
                                 Force Augmentation Strategic Business Plan and the
                                 Sales Force Augmentation Process Management
                                 System to assure successful implementation.

   Management 	               Postal Service management stated they fully agree with
   Response 	                 the OIG and have taken the following steps during the past
                              90 days to ensure these operational improvements occur.
                              Sales Force Augmentation management has:

                              •	 with the assistance of a contractor, developed "Process
                                 Management" maps, using the Postal Service's
                                 Customer-Perfect 6.2 criteria designed for new
                                 products and services.

                              •	 developed a formal training module to train the District
                                 Provider Managers. This will ensure all District
                                 Provider Managers have similar direction and follow the
                                 same operational procedures while managing day-to-
                                 day Sales Force Augmentation activity.

                              •	 developed a formal "Audit Process" that District
                                 Provider Managers will follow. The Sales Force
                                 Augmentation management's goal is that this process
                                 will provide a consistent approach by the District
                                 Provider Managers, regardless of the contracted
                                 Provider and the Provider's method of bookkeeping.

                              h"issued a Statement of Work for the formal development
                                and production of a "Sales Force Augmentation
                                Operational Manual/District Provider Manual Guideline
                                Book". Development of this manual will incorporate the
                                Process Management maps, the business plan, and
                                the newly developed audit process in an effort to
                                promote the accuracy and consistency to the Sales
                                Force Augmentation program during expansion.




                                                8
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II                RG-MA-99-002


  Evaluation of              The planned and implemented actions by the Sales Force
  Management's               Augmentation management satisfied the intent of the OIG
  Response                   suggestion.

  Observation B:             Providers are not accurately or consistently determining
  Clearer Guidance           baselines for customer accounts, used in the calculation of
  Needed for Baseline        Provider payments. This situation occurred because Sales
  Determinations             Force Augmentation management has not provided clear
                             guidance for the Providers to establish baselines and is not
                             examining baseline data because of resource limitations.
                             Since the additional sales above the baseline are used to
                             determine actual revenue gained through the Sales Force
                             Augmentation program, the amounts paid to the Providers
                             may not be correctly determined. Further, the accuracy of
                             this key measurement of the financial success of the Sales
                             Force Augmentation pilot is undermined.

                             Provider A states that baselines are established on the
                             initial visit and rarely change. Provider B, however, states
                             that it takes an average of two to three months to
                             determine the baseline for customers and their initial
                             baselines may be revised based upon the average usage
                             during the first three months. Provider A also advised that
                             their billing is estimated primarily on several large
                             customers' actual usage, rather than using all customers'
                             actual baselines calculations. Both Providers stated that
                             they recognize and attempt to incorporate seasonal
                             fluctuations when establishing average baselines with new
                             customers.

                             The contract with the Providers states that a baseline will
                             be established "on the initial contact" with each customer
                             and that the USPS has the right to verify the baseline
                             numbers submitted by the Provider. The contract does not
                             require Providers to subsequently revise the baselines
                             unless directed by Sales Force Augmentation
                             management.

                             Provider A could be in compliance with the terms of the
                             contract by establishing the baselines based upon the
                             initial visit and not subsequently revising the baseline for
                             known usage. In contrast, Provider B also initially
                             establishes baselines but has revised the baselines for
                             some customers based upon the first 2-3 months' actual
                             usage because prior usage was not always clearly known
                             on the initial contact.

                                                9
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II               RG-MA-99-002


                             During our review of Provider A, we also noted that some
                             customers with substantial existing inventories of Postal
                             products were established with a baseline of zero.
                             However, the contract states that "if a customer is using
                             any of the USPS products on a repetitive basis, the
                             provider shall establish a baseline which equates to the
                             customer's actual monthly usage of that product."

                             Although a substantial inventory of Postal products were
                             on-hand during the initial visit, which contradicts a zero
                             baseline determination, the District Provider Managers
                             were not always performing an independent verification of
                             these baseline numbers, which could lead to an
                             undetected misstated baseline. We noted that baseline
                             determinations were not being independently verified on a
                             consistent basis by the District Provider Managers.
                             Although one Manager advised that he performs a phone
                             review of a minimum of 10 percent of new customer
                             accounts, which includes the determination of the
                             customer's baseline number, he does not perform on-site
                             reviews. Another Manager stated that he also
                             telephonically reviews the same amount of new accounts,
                             and with the assistance of the Implementation
                             Coordinators, reviews a sample of existing customer
                             accounts, but neither performs on-site reviews to verify this
                             reported information. While telephonic reviews are useful,
                             they are not as reliable as on-site verifications of reported
                             information. Both Managers stated they could not perform
                             on-site reviews because of the level of assigned
                             responsibilities, available resources, and geographic
                             location of the customers.

                             Provider A also uses several automated spreadsheets to
                             maintain customers and sales representatives information.
                             However, these spreadsheets are not linked.
                             Consequently, the baseline information is manually
                             estimated for the billing process. Since only "summary
                             information" by sales representatives is submitted and
                             baseline information is estimated, Sales Force
                             Augmentation management is unable to verify the
                             reliability of the baseline numbers used for billing.

                             Sales Force Augmentation management believes that
                             baseline establishment is still a recurring problem. One
                             District Provider Manager also acknowledged that
                             establishing baselines has been a problem and, as before,


                                               10
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	               RG-MA-99-002


                              there is no exact science to it. He believes that baselines
                              for some customers did not level out for approximately 90
                              days.

   Suggestion                 Sales Force Augmentation management should:

                              2.	 issue specific guidance to the Providers concerning
                                  consistent baseline determinations, including how to
                                  average seasonal fluctuations.

   Management                 Sales Force Augmentation management stated they have
   Response                   taken corrective action on baselining efforts as a result of
                              this review. In these efforts management:

                              •	 sent electronic notifications to both Providers indicating
                                 that baselines must be established as part of the initial
                                 visit, and reviewed over a period of 2 to 3 months. At
                                 review if the contractor believes baseline numbers are
                                 not accurate, the Provider is to notify Sales Force
                                 Augmentation management and request in writing
                                 authorization to change numbers based on factual
                                 evidence to support the request. Along with this action,
                                 the District Provider Managers have been instructed
                                 that if a baseline change is requested, they are to fully
                                 review the Provider's supporting documentation and
                                 obtain approval from Sales Force Augmentation
                                 management before a baseline change may occur.

                              •	 informed us they incorporated the policy above in the
                                 Baseline section of the new Solicitation Statement of
                                 Work.

                              •	 indicated the baseline entry within the website will have
                                 a security restricted access feature which will allow only
                                 the Sales Force Augmentation Managers to adjust
                                 baselines.

   Evaluation of              The implemented and planned actions by the Sales Force
   Management's               Augmentation management satisfy the intent of the OIG
   Response                   suggestion.


   Suggestion                 Sales Force Augmentation management should:

                              3.	 more closely manage and monitor the processes used
                                  by Providers for establishing baselines.

                                               11
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	               RG-MA-99-002


   Management                 Sales Force Augmentation management stated that they
   Response                   are placing a renewed emphasis on these monitoring
                              efforts, such as part of the new District Provider Manager
                              training curriculum. However, the Sales Force
                              Augmentation management suggested that as barcoding
                              and scanning technology are improved for the USPS, new
                              customers will have a verifiable baseline that shows prior
                              usage and barcode scans, but as the OIG has noted, this
                              is only if they are members of delivery confirmation.

   Evaluation of              We appreciate the USPS management's renewed
   Management's               emphasis on monitoring efforts, however the only verifiable
   Response                   data available will be for those customers who select the
                              Delivery Confirmation services, but not those who don't
                              use the barcoding.

   Suggestion                 Sales Force Augmentation management should:

                              4.	 require Providers to incorporate baseline information in
                                  their software programs and ensure baseline numbers
                                  are used accurately in their calculations.

   Management                 Sales Force Augmentation management informed us the
   Response                   current solicitation provides the computer code and data
                              dictionary required for electronic financial measurement of
                              the Sales Force Augmentation program to prospective
                              bidders. Management explained that the baseline
                              information data field must be filled in to activate a
                              customer account and failure to do so would "flag" the
                              account and delay potential commissions. Management
                              states that the timeline for this is complete, however, the
                              OIG staff have not reviewed the new automated system at
                              the Provider A location to validate it.

   Evaluation of              The planned and implemented actions by the Sales Force
   Management's               Augmentation management satisfy the intent of the OIG
   Response                   suggestions.

   Suggestion                 Sales Force Augmentation management should:

                              5. determine whether Area Implementation Coordinators
                                 or additional staff are needed to monitor and
                                 independently verify baseline processes.




                                               12
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	                RG-MA-99-002


   Management 	               The Sales Force Augmentation management informed us
   Response 	                 they are investigating the following mechanisms in an
                              effort to increase the capacity to perform audit functions
                              and baseline verifications. These mechanisms include:

                              •	 reviewing the possibility of using limited/light duty
                                 employees to assist with telephone audits,
                              •	 reviewing the use of independent temporary services
                                 that would conduct telephone interviews, and
                              •	 submitting a formal staffing package to the Vice.
                                 President of Tactical Marketing and Sales Development
                                 for consideration, review, and recommendations to the
                                 Chief Operating Officer

   Evaluation of              The actions underway by the Sales Force Augmentation
   Management's               management satisfy the intent of the OIG suggestions.
   Response

   Observation C:             Provider A management could not readily provide
   Support for Provider       supporting information to confirm their monthly billings to
   Billings Needs             USPS. We selected a sample of customer accounts to
   Improvement                verify the amount billed in an accounting period. However
                              documentation supplied by Provider A of sales
                              representative and customer account activity was
                              generally incomplete, not filed or not readily available. In
                              addition, some of the information supporting the billing was
                              a manual compilation of various reports and internal
                              source documents were not readily obtainable. For
                              Accounting Period 4, over $ 78,350 has been paid to this
                              Provider. Because of the reasons noted above, the
                              accuracy of the payments made by USPS to Provider A is
                              questionable.

                              The objective of our review was to confirm the accuracy of
                              a bill that had been submitted for payment from the
                              Providers to the Postal Service and verify the reliability of
                              its supporting documentation. We selected a random
                              sample of customer accounts, traced actual product usage
                              reported by the sales representatives during one period,
                              and compared usage against approved baseline amounts
                              in order to calculate net usage. The Postal Service uses
                              the following formula to calculate payments to the Sales
                              Force Augmentation Providers.

                              VOLUME: 	 Reported Usage - Baseline Amount =
                                        Net Usage(Units in the Mail Stream)

                                               13
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II               RG-MA-99-002




                             PAYMENT: (Commission Fee %) x (Product Unit Price) x
                                      (Units in the Mail Stream) = Payment to the
                                       Provider

                             We sampled the supporting information for one accounting
                             period in FY 1999 based upon usage information reported
                             by two sales representatives for Provider A and Provider
                             B. For Provider A, we conducted an on-site review of their
                             billings and supporting information; for Provider B, we
                             performed a desk review of billings and supporting
                             information. For Provider B, we obtained the bill and
                             supporting information, and our review disclosed that the
                             amount billed was calculated in accordance with the
                             approved Sales Force Augmentation contract guidelines
                             and was adequately documented.

                             Our review of Provider A disclosed several weaknesses in
                             the supporting documentation and the calculation of the
                             Provider's bill relating to accounting period 4 in FY 1999.
                             Documentation supplied by Provider A on the Sales
                             Representative and customer account activity was
                             incomplete, not filed, or not readily available for review.
                             Based upon our review and interviews with the District
                             Provider Manager, we selected an additional sample of 30
                             customer accounts from the first billing period in 1998.

                             Our review generally disclosed that Provider A could not
                             confirm whether these customer accounts were active and
                             still using Postal products; some customer file folders were
                             empty; and some of the files were missing important
                             information, such as approved baseline amounts and
                             inventory sheets. In addition, the Provider could not
                             readily provide automated supporting documentation from
                             their system for these customers. The Provider believed
                             that some of the missing information occurred because
                             some information may have been sent to their Corporate
                             Headquarters, may still be in the possession of the sales
                             representatives, or may be pending filing.

                             Although we noted that general oversight of Provider’s
                             activities was performed by the District Provider Managers,
                             they could further strengthen their process for review.
                             These Managers did not always have access to the
                             automated information available from the Providers. In
                             addition, the District Providers Managers selected and


                                               14
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II               RG-MA-99-002


                             reviewed baseline activity for a sample of new customer
                             accounts, but did not always select for review baseline
                             activity for previously established customers.

  Suggestions                Sales Force Augmentation management needs to:

                             6. obtain from Provider A accurate, reliable, and complete
                                information to support their monthly billings to the
                                Postal Service and disallow payments until adequate
                                supporting information is provided. This information
                                should include at a minimum, customer account
                                information, such as profile sheets (which includes
                                baseline amounts), supply inventory sheets, and other
                                key information that supports the payment request.

  Management                 The Sales Force Augmentation management informed
  Response                   Provider A of potential contractual violations concerning
                             their inconsistent record keeping and past performance as
                             a result of this review. Since the on-site visit by the OIG,
                             Provider A has implemented their own electronic database
                             system which will capture required fields of information.
                             Provider A has also issued palm-pilot hardware systems to
                             sales representatives to enable them to immediately
                             gather data from customers during visits. Previously
                             gathered information is being input into this system and
                             Provider A has been informed that failure to keep records
                             consistent and uniformly accessible to USPS management
                             will be enforced. Provider A has assured Sales Force
                             Augmentation management they will perfect their
                             electronic system before they are awarded or move into
                             new territories.

  Evaluation of              The planned and implemented actions by the Sales Force
  Management's               Augmentation management satisfy the intent of the OIG
  Response                   suggestion.

  Suggestion                 Sales Force Augmentation management needs to:

                             7. provide guidance to the District Provider Managers on
                                methods for performing their reviews of customer
                                accounts, selecting a sample of both new and previous
                                accounts for review, and examining the supporting
                                information for the Providers' billings.




                                               15
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	             RG-MA-99-002


   Management                 Sales Force Augmentation management stated that formal
   Response                   training has been developed for the District Provider
                              Managers, along with processes that will be incorporated
                              into an Operational Manual that is to be designed.
                              Management plans to continue to improve procedure
                              guidelines and education for the Sales Force
                              Augmentation staff and to tighten the management
                              controls.

   Evaluation of              The planned and implemented actions by the Sales Force
   Management's               Augmentation management satisfy the intent of the OIG
   Response                   suggestions.

   Observation D:             Sales Force Augmentation management has not
   Spot Audits Need To        performed random spot audits of customers' supply
   Be Utilized As A           inventory. The New York Metro Area Sales Force
   Management Control         Augmentation pilot of 1996, demonstrated that Providers
                              and USPS should perform regular inventory counts, which
                              are used to calculate Provider reimbursements. Provider
                              sales representatives are performing regular inventory
                              counts to report customer's supplies usage. However, the
                              Sales Force Augmentation District Provider Managers
                              explained that they were not conducting these on-site spot
                              audits, because they have neither the time nor resources
                              and were unsure as to whether they were to perform these
                              reviews. As a result, the absence of this management
                              control weakens the Postal Service's ability to
                              independently confirm the accuracy of Provider payments.

                              The first Sales Force Augmentation pilot was a two-year
                              effort that was performed in the New York Metro Area.
                              One of the areas for improvement in the pilot was the
                              reimbursement paid to individual sales contractors, which
                              was overstated in some cases, because customers'
                              inventory levels were not independently verified. This
                              occurrence could be resolved by performing a spot audit.

                              To perform a spot audit, District Provider Managers would:

                              •	 select a random sample of customers,
                              •	 review the USPS supply orders and usage trends for
                                 those customers,
                              •	 obtain most recent inventory sheet, from Provider sales
                                 representative (which shows usage),
                              •	 perform an actual count of the inventory of priority,
                                 express, and global express Postal products, and

                                               16
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	                RG-MA-99-002


                              •	 reconcile physical inventory count against that which
                                 has been reported as used at the customer location.

                              As a result of the New York pilot, the Sales Force
                              Augmentation Management Team determined that spot
                              audits would be performed by the District Provider
                              Managers in future Sales Force Augmentation pilots.
                              Since USPS cannot yet verify that these Postal products
                              are actually going through the mail stream, spot audits of
                              customers' inventory levels are crucial to Postal
                              management to provide reasonable assurance that
                              Provider reimbursements are not overstated.

                              During our on-site work in San Francisco and Atlanta, we
                              found that these spot audits have not been performed by
                              the District Provider Managers. The District Provider
                              Managers stated they do not have the time or resources
                              necessary to perform these on-site reviews and were
                              unsure as to whether they were to perform these spot
                              audits. One District Provider Manager stated that with
                              over 20 sales representatives covering three areas, he
                              would be unable to perform these reviews.

                              The District Provider Managers are performing telephone
                              reviews with a sample of customers. These reviews
                              include confirmation of baseline numbers and supply
                              information, as reported by the Provider sales
                              representatives. District Provider Managers advised that
                              these reviews found some differences in baseline
                              information that needed correction by the Providers.
                              Telephone reviews can be useful but the information is
                              obtained from the customer and is not an independent
                              validation of the accuracy and reliability of customer
                              information. An independent on-site validation is vital for
                              the confirmation of Provider billings to the Postal Service.

   Suggestion                 Sales Force Augmentation management should:

                              8.	 ensure that random spot audits of customers' supplies
                                  inventory are performed on-site by Postal Service
                                  Sales Force Augmentation staff. These audits may be
                                  performed by the District Provider Managers, Area
                                  Implementation Coordinators, or other available staff.




                                               17
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	                 RG-MA-99-002


   Management 	               Sales Force Augmentation management explained that the
   Response 	                 spot audits were inadvertently omitted from the previous
                              audit guidelines provided to District Provider Managers.
                              They have incorporated a requirement in the new District
                              Provider Manager Guideline Book that these spot audits
                              will be performed at a minimum of 10 percent of the total
                              customer base locations. USPS management will be able
                              to achieve this by the verification of consistent audit results
                              provided by the contractor compared to the actual
                              inventories taken during the on-site visit.

   Evaluation of              The implemented actions by the Sales Force
   Management's               Augmentation management satisfy the intent of the OIG
   Response                   suggestion.

   Observation E:             Another critical component of the Sales Force
   Sales Force                Augmentation management control is the automated Sales
   Augmentation Intranet      Force Augmentation Intranet system. When operational,
   System Not Yet             this system will provide Sales Force Augmentation
   Operational                management with the ability to monitor and access
                              baselines, product usage, customer activities, inventory
                              counts, and billing information. This system was originally
                              planned for development and implementation by October
                              1998, but has been delayed at least until March 1999.

                              Sales Force Augmentation management has made
                              substantial progress in the development of the individual
                              provider and customer profile data screens. However,
                              because of continued delays in the Postal Service's
                              Intranet system development, Sales Force Augmentation
                              management does not have the detailed information they
                              need to effectively manage and review the program and
                              must continue to rely solely on the Provider's internal
                              controls. Therefore, baseline information is subject to
                              unauthorized or inadvertent changes, without prompt
                              detection or approval by the Sales Force Augmentation
                              management.

                              Sales Force Augmentation management has been
                              developing an Intranet system since mid-1998. As a result
                              of the New York pilot, management recognized that the
                              program generated an extensive amount of paperwork.
                              Therefore, a reliable and accurate automated reporting
                              system was needed to provide on-line access to real-time
                              information on customer and Provider activity.
                              Management needs to have the capability to monitor daily

                                               18
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II               RG-MA-99-002


                             customer account information, such as baseline numbers,
                             inventory levels, activity trends, and other operational
                             areas. To facilitate timely reporting, the system would be
                             designed to furnish the Sales Force Augmentation
                             management team and Providers with automated reporting
                             throughout billing cycles and as needed.

                             To date, the Sales Force Augmentation team has made
                             substantial progress in developing the Intranet system.
                             Management reported that they are nearly finished with the
                             web page, which includes specific Provider and Sales
                             Representative reporting information, and designed the
                             system data screens that include more than 30 fields of
                             customer information. These pages also have been
                             designed with restricted access to ensure the security and
                             integrity of program information. However, delays have
                             now occurred in development of the interface between the
                             USPS system and the Providers systems. Sales Force
                             Augmentation management stated that compatibility issues
                             and the location of the host site contributed to the delays
                             encountered.

                             In addition, available funding for the continued
                             development of the Intranet system had been exhausted.
                             Sales Force Augmentation management utilized available
                             funds to hire a contractor for the design and creation of the
                             data screens and web site. According to the Sales Force
                             Augmentation Manager, the cost of the interface between
                             the Providers' software programs and the Postal Service's
                             Intranet system has recently been estimated by one
                             contractor at between $250,000 to $1 million. Sales Force
                             Augmentation has requested additional funding for the
                             finalization of the Intranet system.

                             One of the primary uses of the Intranet system is to
                             manage baseline information. Baseline numbers are
                             established for each customer to show their prior actual
                             use of Postal products. The baseline represents the
                             number above which usage is attributed to Sales Force
                             Augmentation and on which reimbursement to the Provider
                             is calculated. In the absence of the Postal Service's
                             Intranet System, the Providers must maintain and utilize
                             their own software systems to report baseline information
                             to Sales Force Augmentation management. Therefore,
                             baseline information is subject to unauthorized or



                                               19
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	              RG-MA-99-002


                              inadvertent changes, without prompt detection or approval
                              by the Sales Force Augmentation management.

   Suggestion                 Sales Force Augmentation management should:

                              9. continue to emphasize the prompt development and
                                 deployment of the Intranet system. If adequate
                                 developmental funding is not readily available, the
                                 Sales Force Augmentation team should meet with the
                                 Chief Marketing Officer to acquire these necessary
                                 funds.

   Management 	               Management informed us that they realize the importance
   Response 	                 of the Intranet System in order to ensure the program's
                              integrity and that steps have been taken to ensure
                              completion. These steps are as follows and Sales Force
                              Augmentation management expects completion dates will
                              be within the next 60 to 90 days.

                              ▶	 Three contract employees are currently dedicated
                                 resources for the Sales Force Augmentation Website
                                 program.

                              ▶	 A requisition, pending in the Purchasing Office, to
                                 modify an existing contract with the International
                                 Business Unit could modify an existing Website
                                 application and potentially host the program needed for
                                 Sales Force Augmentation.

                              ▶	 Programming efforts are now centered on site
                                 maintenance, hosting, beta testing, and data transfer.

   Evaluation of              Actions underway by the Sales Force Augmentation
   Management's               management satisfy the intent of the OIG suggestions.
   Response

   Observation F:             Greater communication needs to occur between the Sales
   Coordination of            Force Augmentation management and Managers of the
   Delivery Confirmation      Delivery Confirmation Program as Delivery Confirmation is
   is Vital to the            implemented to ensure that:
   Deployment of the
   Sales Force                •	 automated Delivery Confirmation software is acquired
   Augmentation                  and distributed to Sales Force Augmentation
   Program                       customers, and



                                               20
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	                RG-MA-99-002


                              •	 funds are made available for the Sales Force
                                 Augmentation program to offset the additional software
                                 costs to the customers.

                              The Delivery Confirmation System is a vital tool for the
                              USPS that tracks Postal products going through the mail
                              stream, while capturing revenue, product, and usage
                              information. This system, scheduled for March 1999
                              deployment, is also a critical supporting component of the
                              Sales Force Augmentation program, because it is the only
                              available means for Sales Force Augmentation
                              management to confirm actual customer usage of Postal
                              products and the true effectiveness of the pilot.

                              During our review, we met with the Delivery Confirmation
                              Program Manager who stated that Delivery Confirmation
                              would provide an excellent means of fraud prevention,
                              allowing Postal Service customers to feel more secure
                              when using the USPS. The Manager was generally
                              familiar with the Sales Force Augmentation program,
                              however, her goal was to ensure timely implementation of
                              Delivery Confirmation for all Postal Service customers.

                              Delivery Confirmation will be a special service, offered to
                              Postal Service customers, scheduled for availability March
                              14, 1999. The electronic customers (retail users) will pay
                              a lower rate for this service versus the non-electronic
                              customers (general public), who will pay an additional 35
                              cents per piece. Some retail users may be excluded from
                              this additional charge, and actually given a 25 cents
                              discount per priority mail piece, if they use the Post Office
                              Online system or purchase and use one of the six different
                              software programs available for electronic mailings.

                              The Sales Force Augmentation team originally planned to
                              rely heavily on the inventory tracking and paper trail for
                              revenue tracking until the Delivery Confirmation system
                              was available. Sales Force Augmentation management
                              advised that they are unable to identify any other economic
                              and feasible alternatives, such as postage meters, that
                              would effectively track usage information.

                              The Sales Force Augmentation team now recognizes that
                              Delivery Confirmation may not be utilized by all pilot
                              program participants. The Delivery Confirmation service
                              will not automatically be provided to all customers and if


                                               21
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II	                  RG-MA-99-002


                              they elect to use it, there will be an additional cost to
                              customers for this service. Small- and medium-sized
                              business customers in the Sales Force Augmentation pilot
                              may participate by either paying the extra shipping costs or
                              purchasing automated software. By purchasing the
                              automated software, customers receive discounts for using
                              this feature. However, for those small business customers
                              that decide not to use Delivery Confirmation, the Sales
                              Force Augmentation management still will not have a
                              means of measuring actual usage by customers and
                              verifying the effectiveness of the program.

   Suggestion 	               The Sales Force Augmentation management needs to:

                              10. meet with the Project Manager of the Delivery
                                  Confirmation Program and clearly communicate the
                                  critical nature of this system to the pilot to ensure that
                                  the automated software is available.

   Management 	               The Sales Force Augmentation management stated they
   Response 	                 will pursue a meeting with the Delivery Confirmation
                              management in conjunction with the pursuit of new
                              contractors. Management stated they believe it
                              reasonable that 50 to 75 percent of their customers would
                              elect to use Delivery Confirmation services if an economic
                              manifest system can be provided and they look forward to
                              examples of this in proposals for the February solicitation.

                              Management also stated they believe the use of this
                              measurement tool will occur during the remainder of Fiscal
                              Year 1999 and anticipate it will be in place in the event the
                              OIG performs a Phase III review.

   Evaluation of              The OIG would appreciate being advised of the outcome
   Management's               efforts to modify the existing contract or to modify the
   Response                   existing Website applications and to complete
                              programming efforts. We agree with the Sales Force
                              Augmentation management's planned actions.

   Suggestion 	               The Sales Force Augmentation management needs to:

                              11. explore providing financial incentives to customers that
                                  would maximize distribution to Sales Force
                                  Augmentation customers in order to measure actual
                                  product usage and encourage wide-spread acceptance
                                  of the software.


                                               22
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II               RG-MA-99-002


  Management                 Sales Force Augmentation management informed us they
  Response                   believe it may be feasible for the contractors to subsidize
                             or offset the cost to their customer base, but do not believe
                             it would be proper for USPS to subsidize the cost. Sales
                             Force Augmentation management have suggested it in the
                             solicitation of February 2, 1999, and stated they will
                             continue to pursue these financial incentives after a
                             contract(s) are awarded.

  Evaluation of              Efforts underway by the Sales Force Augmentation
  Management's               management satisfy the intent of the OIG suggestion.
  Response




                                               23
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II                RG-MA-99-002




  Follow-Up On Prior         Issue #1: Management Controls should be further refined,
  Report                               specifically relating to baselining, transitioning
  (At The Time Of This                 of accounts, and recording revenues and
  Review)                              expenditures.

                                          Status: Completed

                                          Sales Force Augmentation management
                                          eliminated emergency inventory stocks, which
                                          improved the recording of revenues and
                                          expenditures. Management has also developed
                                          a policy, in the new solicitation dated February
                                          2, 1999, for transitioning accounts to Account
                                          Representatives.

                                          Status: Not Yet Completed.

                                          Management continues to need improvement
                                          with the establishment of baselines, as detailed
                                          in the suggestions in this report.

                             Issue #2 Additional Staffing needs to be assigned to
                                      properly manage the program and effectively
                                      serve the customers.

                                          Status: Not Yet Completed.

                                          Sales Force Augmentation management has
                                          added additional staff, but spot audits are not
                                          performed, and baseline determinations and
                                          changes are not being reviewed. This occurred
                                          because of the amount of time devoted to their
                                          oversight responsibilities and the extensive
                                          duties already being performed by the District
                                          Provider Managers.

                             Issue #3 Advise the Board of Governors of the
                                      developmental plans for the Sales Force
                                      Augmentation project.

                                          Status: Completed.

                                          Sales Force Augmentation management has
                                          briefed the Board of Governors on the Sales
                                          Force Augmentation project, has received


                                               24
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II                RG-MA-99-002


                                          additional funding for the pilot, and has also
                                          briefed the Strategic Management Committee
                                          on the ongoing status of the pilot.

                             Issue #4 Intranet System for the reporting of provider
                                      reporting of sales data and for overall project
                                      monitoring has been delayed.

                                          Status: Not Yet Completed.

                                          Although Sales Force Augmentation
                                          management reported the system would be in
                                          place no later than November 1998, the system
                                          is not yet operational and no firm revised date
                                          has been established for its implementation.

                             We appreciate the coorperation and courtesies provided
                             by your staff during our review. If you have any questions,
                             please contact Wayne Goleski, Director, Revenue
                             Generation, or me at (703) 248-2300.

                                //Signed//
                             Sylvia L. Owens
                             Assistant Inspector General
                              for Revenue Cost Containment

                             cc: John R. Gunnels
                                 Alan B. Kiel




                                               25
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




  Major Contributors:




                                               26
                                     Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               27                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               28                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               29                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               30                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               31                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               32                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               33                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               34                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               35                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               36                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               37                  Appendix
                                      Restricted Information
Review of the Sales Force Augmentation Pilot project – Phase II   RG-MA-99-002




                                               38                  Appendix
                                      Restricted Information
